<html>
<title> - EGYPT: CHALLENGES AND OPPORTUNITIES FOR U.S. POLICY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


          EGYPT: CHALLENGES AND OPPORTUNITIES FOR U.S. POLICY

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2016

                               __________

                           Serial No. 114-194

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                ___________
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
20-455PDF                      WASHINGTON : 2016                        
                                 
________________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>  
                               
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Mark Green, president, International Republican 
  Institute......................................................     7
Mr. Mokhtar Awad, research fellow, Program on Extremism, Center 
  for Cyber and Homeland Security, George Washington University..    17
Ms. Amy Hawthorne, deputy director for research, Project on 
  Middle East Democracy..........................................    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mark Green: Prepared statement.....................     9
Mr. Mokhtar Awad: Prepared statement.............................    19
Ms. Amy Hawthorne: Prepared statement............................    30

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Prepared statement..................    62

 
          EGYPT: CHALLENGES AND OPPORTUNITIES FOR U.S. POLICY

                              ----------                              


                        WEDNESDAY, JUNE 15, 2016

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:03 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Mr. Deutch, the ranking 
member, for 5 minutes each for our opening statements, I will 
then recognize other members seeking recognition for 1 minute. 
We will then hear from our witnesses. And you will notice an 
empty seat, but she is coming right over, getting through 
security.
    Without objection, the witnesses' prepared statements will 
be made a part of the record. Members may have 5 days to insert 
statements and questions for the record subject to the length 
limitation in the rules.
    And the Chair now recognizes herself for 5 minutes.
    This is the third hearing of our subcommittee that we have 
had on Egypt in a little over a year, demonstrating the 
importance of and our subcommittee's commitment to Egypt's role 
in a volatile region, as well as the concern of our members 
that they have on current U.S. policy toward our ally.
    The political, economic, and security challenges that Egypt 
is facing right now, they are numerous, they are 
interdependent. It is extremely difficult, for example, for 
President Sisi to make necessary structural reforms to Egypt's 
economy without potentially undermining the fragile political 
support he is leaning on to bring much-needed stability to the 
country.
    Conversely, if these economic reforms are not made soon, we 
may see a return of the unrest that we saw on Egyptian streets 
not too long ago. And it is in this context that Egypt is 
facing growing security threats from an expanding ISIS and its 
Sinai Province affiliate, from al-Qaeda-linked groups, from 
militias, from extremists in Libya, and from particularly 
violent factions of the Muslim Brotherhood. Sinai Province has 
formed terrorist cells that are targeting both Egyptian and 
Israeli military personnel and civilians, and has already 
killed hundreds of Egyptian soldiers is continuing to target 
the peacekeeping operations or the MFO, Multinational Force of 
Observers in the Sinai, prompting the Pentagon to reposition 
U.S. troops and reconsider its presence there.
    There is more and more evidence that ISIS is attempting to 
link its operations in the Sinai and eastern Egypt to its 
presence in the Western Desert that sits along the extremely 
porous border with Libya. And there are growing reports of 
increased activity in southern Egypt and the Nile Valley, 
including in greater Cairo, which has seen IEDs and shootings 
like the one that claimed the lives of eight Egyptian policemen 
last month.
    While Egypt has been trying to keep up with these threats, 
it is increasingly clear that Egypt must also adopt a 
counterinsurgency approach that will allow it to get a handle 
on the problem before it gets worse.
    While the security situation remains a high priority, I am 
extremely concerned by the government's attitude toward human 
rights, its crackdowns on civil society, its quashing of 
dissent. I was disappointed to see that the government froze 
the assets of yet another NGO just yesterday as part of an 
ongoing case which began in 2011 and targeted U.S. NGOs like 
IRI, whose president joins us here today.
    Forty-three NGO workers in this case were unjustly 
convicted in 2013, as we all remember, and I continue to call 
on President Sisi to do everything in his power, including 
working with the Egyptian Parliament and with the judicial 
system to find a way to pardon these workers as soon as 
possible. The government needs to find a way to open up civil 
society and allow Egyptians to participate and thrive in public 
life or risk exacerbating the very problems it is trying to 
avoid.
    In Egypt, the economy is perhaps the biggest challenge of 
all. Infusions of cash from the Gulf States, especially from 
Saudi Arabia, as well as loans from the World Bank, the IMF, 
and others, have managed to keep the economy afloat for the 
time being. But these investments aren't likely to stimulate 
growth in the long term, and the government has to make 
difficult structural reforms like reducing the bloated public 
payroll and passing the long-promised value-added tax. 
Unemployment, especially among youth, remains high, and around 
60 percent of the population is poor and living on subsidies.
    One bright spot on the economy horizon has been the 
Egyptian-American Enterprise Fund, which Congress authorized in 
2012 and has been successfully investing in Egypt's private 
sector to create jobs and support sustainable development.
    The Enterprise Fund, as with all the aid that Congress has 
appropriated, is an example of how much the United States wants 
to help Egypt as both an ally and a strong supporter of peace 
in that troubled region. But the Egyptian Government also needs 
to help us help them, and that includes allowing our Economic 
Support Funds, or ESF monies, to be programmed. As of March 31, 
there is a backlog of approximately $900 million in ESF for 
Egypt because the government has held up permits for our 
implementing partners on everything from democracy and 
governance to education and health care.
    That is why I was happy to sign a letter this month, 
alongside Chairman Royce, Ranking Member Engel, and the co-
chairs of the Tunisia Caucus, asking the Secretary of State to 
reprogram up to $20 million of this money for Tunisia. This is 
not meant to be a slight against Egypt, but it makes little 
sense to continue letting these funds sit in the pipeline when 
they can be spent somewhere else. Someplace like Tunisia, which 
is in desperate need of the funds and is willing to let us 
help.
    Egypt is an important strategic ally that is struggling on 
a number of fronts, and as we discuss the challenges and 
opportunities for U.S. policy here today, I continue to believe 
that the best way to help is through encouragement and 
assistance as a friend.
    And with that, I am pleased to yield to the ranking member, 
Mr. Deutch of Florida.
    Mr. Deutch. Thank you. Thank you, Madam Chairman, and 
thanks for our witnesses for appearing today.
    First, I want to thank you, Madam Chairman, and Mr. 
Connolly for commissioning a series of GAO reports on our 
assistance to Egypt. The most recent report issued in April 
highlighted some of the serious challenges faced by Department 
of Defense and the Department of State in securing compliance 
from the Egyptian Government on end-use monitoring of our 
assistance. And I find this troubling. When we work together in 
partnership with the government, that government should not be 
hindering our ability to ensure that our assistance is going to 
where it is meant to go and doing what it is meant to do.
    Second, I want to unequivocally state that I value the 
U.S.-Egypt relationship. I value Egypt's role in the region. I 
want to see the Egyptian people prosper. And I particularly 
want to thank the Egyptian Foreign Ministry for the condolences 
it sent to the victims of the horrific terror attack in the 
chairman and my home State just days ago.
    But it is becoming increasingly difficult to discuss the 
U.S.-Egypt relationship outside its security context, and so 
while I have supported and I continue to support the Sisi 
government and the President's commitment to fighting terror 
and keeping peace in the region, I am quite troubled by the 
direction of the country when it comes to civil society and 
human rights. I do understand that it can be challenging to 
balance security and human rights.
    Egypt is coming out of a period of great turmoil. As 
Egypt's leaders look around the region, they see numerous 
threats to stability, and there is no doubt that we share our 
Egyptian partners' commitment to preventing ISIS and its 
affiliates from dominating Sinai, but I urge our friends not to 
silence the discourse on human rights. Engage with civil 
society, democracy, and human right activists. Work together. 
Have the tough conversations. A lack of inclusive governing 
will yield greater instability.
    One area I am deeply concerned about is the foreign funding 
of the NGOs' case. Now, this subcommittee has held many 
hearings on the arrest, trial, and conviction of the 43 NGO 
employees. Mr. Green, you have been present for several of 
those hearings. The idea that the government is now going to 
reopen the NGO trial and add new defendants is deeply 
disturbing. The only reason this case should be reopened is to 
pardon each and every one of the 43 individuals. And I want to 
commend the chair for continued advocacy on behalf of those who 
were so wrongfully convicted in this case.
    President Sisi has been tasked with the difficult job of 
reviving Egypt's economy after years of mismanagement. I want 
to commend him for taking seriously recommendations for reform 
from the World Bank and the IMF. Last year, the economy grew at 
its fastest rate since 2010. Buoyed by generous financial 
support from the gulf, Egypt has found some economic relief. 
But diminished foreign currency reserves are making it 
increasingly difficult to import fuel and food, and water 
shortages are beginning to impact rural areas. The government 
must continue to work with international financial institutions 
to push ahead with necessary reforms to meet these challenges.
    On the security front, Egypt faces dangerous threats from 
the Sinai. I commend the Egypt military for its commitment to 
rooting out terrorism and to taking seriously the need to 
improve government services and infrastructure for the people 
of Sinai.
    I extend condolences to the dozens of Egyptian soldiers and 
their families who have lost their lives fighting this 
terrorism, and President Sisi deserves to be commended for 
speaking out against violent Islamic extremism.
    In addition, I want to thank the Egyptian Government for 
its continued cooperation with Israel in the Sinai and its 
continuing efforts to prevent Hamas from using tunnels to 
smuggle dangerous weapons to Gaza.
    President Sisi has made clear his interest in brokering 
peace between Israel and the Palestinians, and both have 
welcomed his involvement in the process with trust-building on 
both sides. He can be a strong voice for two states living side 
by side in peace and security.
    Our $1.3 billion of security assistance to Egypt is 
critical in the fight against ISIS both in the Sinai and in 
Libya. The fragile political situation in Libya has created 
space for ISIS to use Libya as a training ground for its 
fighters. To that end, assisting Egypt in controlling its 1,100 
kilometer border with Libya is essential to preventing ISIS 
fighters from launching cross-border attacks or using Egypt as 
a transit point to the greater Middle East.
    I applaud the administration's recognition of the need to 
refocus our assistance on counterterrorism. The threats facing 
Egypt are not countered with tanks and planes alone but with a 
strong intelligence apparatus and regional and bilateral 
intelligence-sharing, and we have a real opportunity here to 
help Egypt confront and root out terrorism.
    I want to see the people of Egypt succeed. I want to see 
the future of Egypt that so many millions poured into the 
streets demanding. I believe President Sisi wants his country 
and his people to thrive, but to do so will take real political 
will to confront terrorism to reform the economy and to give 
space for civil society to grow and to thrive. These are not 
easy tasks, nor are they accomplished without the support of 
the United States.
    And I look to our witnesses today to help us better 
understand how we can be an effective partner for Egypt while 
continuing to advocate for the basic human rights and values 
that this country was founded upon. And with that, I yield 
back.
    Ms. Ros-Lehtinen. Well said. Thank you so much, Mr. Deutch.
    I will now recognize members for statements that they would 
like to make.
    Mr. Wilson of South Carolina.
    Mr. Wilson of South Carolina. Thank you, Chairman Ileana 
Ros-Lehtinen and Ranking Member Deutch, for holding this 
important hearing.
    Over the last decade, Egypt has been faced with political 
and social instability. Egypt has been and will continue to be 
a valued ally in an unstable region in support of American 
interests and worldwide interests in the global war on 
terrorism. I am grateful my son Julian served with the Army 
National Guard in Egypt with Operation Bright Star, an 
indication of U.S.-Egyptian cooperation. And he was impressed 
by the talented citizens of Egypt.
    I believe that we need to continue our military and 
economic support while we closely monitor whether the money 
that is being provided is wisely spent. Egypt continues to face 
a growing threat from Islamic terrorists, most recently, the 
Egypt Air flight that was destroyed in the eastern 
Mediterranean Sea to the Metrojet flight that exploded over the 
Sinai on October 31, killing 209 Russian tourists.
    Egypt exists within a very dangerous neighborhood, and it 
is very critical that we maintain our support, also maintaining 
our moral responsibilities, promoting IRI as a very positive 
NGO.
    I look forward to hearing from our witnesses regarding how 
the United States can help ensure that Egypt is back on track 
to be a success for prosperity for its citizens.
    Ms. Ros-Lehtinen. Thank you very much, and congratulations 
on your son's military service. It is a long tradition there. 
Good for you, Joe.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman, and thank you for 
our collaboration on the GAO report our friend Deutch cited.
    I think, you know, the relationship with Egypt is a 
critical relationship. It has got to be one we work out. But 
American patience is not unlimited, and the Egyptian leverage 
on the relationship is also not unlimited. There is a desire in 
this country and a growing desire in this body to hold the 
current Egyptian Government accountable for human rights 
violations, accountable for security infringements, accountable 
for how it treats civil society, especially the NGOs we have 
worked with.
    I met with a lot of those NGOs when I was in Cairo, and I 
think the Egyptian Government was counting on the United States 
once the Americans got out of the country to frankly wash their 
hands of the Egyptian staff and volunteers of these NGOs. That 
is not the case, and I hope this hearing makes that very clear. 
And I know Ambassador Green is going to make that point. We 
stand by those brave young men and women who were trying to 
make for a better society in their own country, and I know we 
are going to hear more about that in this hearing. Thank you, 
Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Thank you very 
much.
    Thank you, Mr. Rohrabacher. We are pleased to recognize you 
for any opening statement you might make.
    Mr. Rohrabacher. Thank you very much for holding this 
hearing, and I appreciate you and the ranking member and the 
work that you have put into this.
    Let me just note that I am a co-chairman with the Egyptian 
Caucus, and as such I have been to Egypt a number of times in 
recent days. And let me just state for the record that I 
believe that President el-Sisi and the democratic people in 
Egypt who want to have a legitimate democratic government are 
under attack by forces that would murder them.
    So whatever we are doing when we are talking about Egypt, 
let's understand we are talking about people who are fighting 
forces that would murder them and create a caliphate that would 
be allied with terrorists. In fact, if President el-Sisi and 
his efforts are defeated, you could expect a collapse of 
resistance to this radical Islamic terrorist movement that 
threatens the world.
    They are at an equivalent of where we were at immediately 
after Pearl Harbor. The fact is what did we do when we were 
under attack? Yes, there were things that we would never 
tolerate in our society today. We put large numbers of American 
citizens, Japanese-Americans in camps. Yes, that did not 
indicate what type of government, what type of country we had, 
but it did indicate that we were at war with an enemy that had 
murdered our own people and would continue to do so.
    That is what is going on in Egypt today. Those people are 
on the front lines. President el-Sisi and his democratic allies 
and the moderate Muslim community there are under attack by the 
very same terrorists that would again create a caliphate and 
threaten the entire world. We have faced this terrorism here. 
We have faced it in Orlando. We have faced it in San 
Bernardino. We have faced it at the Boston Marathon.
    This radical Islamic terrorism threat to the world is 
something that we need to recognize. And we need to recognize 
that people like President el-Sisi and the good people of Egypt 
are on the front lines, and we need to back them as much as we 
can so that we can--because we know if they lose, we lose.
    Thank you very much, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Ms. Frankel of Florida.
    Ms. Frankel. Madam Chair, I thank the witnesses for being 
here, and I would like to hear what they have to say so I yield 
back to you.
    Ms. Ros-Lehtinen. Thank you very much, Ms. Frankel.
    And, Dr. Yoho of Florida?
    Mr. Yoho. No comment.
    Ms. Ros-Lehtinen. Okay. Thank you so much to our witnesses. 
First, we are pleased to welcome back a great friend of our 
subcommittee, Ambassador Mark Green, a former colleague of 
ours. He is the president of the International Republican 
Institute. He is a former U.S. Ambassador to Tanzania and 
served as a Member of Congress representing Wisconsin's Eighth 
District from '97 to 2007. It is always a delight to see you, 
Mr. Ambassador. I love following you on Twitter.
    Next, we welcome Mr.--I am going to try my best--Mokhtar 
Awad, who is a research fellow in the Program on Extremism at 
George Washington University's Center for Cyber and Homeland 
Security. Prior to this, Mr. Awad worked as a Research 
Associate at the Center for American Progress. We welcome you 
to our subcommittee, Mr. Awad.
    And lastly, we welcome Ms. Amy Hawthorne, who is the deputy 
director for research at the Project on Middle East Democracy. 
Prior to this, Ms. Hawthorne served as a resident senior fellow 
with the Atlantic Council's Middle East Program where she 
focused on U.S. policy toward Egypt. We welcome you also, Ms. 
Hawthorne.
    We are pleased to have all of you here today. As I had 
said, your statements will be made a part of the record, and we 
will now hear your synthesized version starting with our friend 
Mark.

STATEMENT OF THE HONORABLE MARK GREEN, PRESIDENT, INTERNATIONAL 
                      REPUBLICAN INSTITUTE

    Ambassador Green. Thank you, Madam Chair, Ranking Member 
Deutch, and members of the committee. I appreciate the 
opportunity to testify. And I also want to thank you for the 
tremendous support that you have shown, that all of you have 
shown relating to Egypt's indefensible NGO foreign funding 
trial.
    As you know and as has been alluded to, Egypt wrongfully 
and outrageously convicted 43 innocent staff from IRI, NDI, 
Freedom House, and others. And I am grateful that you continue 
to make pardons for these victims your highest priority in 
discussions with the top Egyptian officials.
    One year ago, Madam Chair, I testified on Tunisia's 
democratic tradition. I offered optimism about the progress it 
was making and suggested that it deserved additional support. I 
wish I could be similarly optimistic here today, but sadly, I 
believe that Egypt is moving on an uncertain and dangerous 
trajectory.
    There is no doubt, as many of you have said, that Egypt 
remains a very important ally and strategic partner for 
America's interests in that part of the world, but there is 
also little doubt, however, that the problems that are in Egypt 
continue to get worse. Polarization and the threat of extremism 
are on the rise. President Sisi's counterterrorism campaign is 
making precious little headway in my opinion while risking even 
greater alienation of the local population. Instead of forging 
an effective effort to root out extremists and extremism, I 
worry that the government's primary response seems to be an 
even greater crackdown on dissent.
    There has been an increase in extrajudicial forced 
disappearances, over 1,800 reported cases in 2015 alone. Mass 
trials and collective convictions based on vague charges of 
harming national interests have become the norm.
    Madam Chair, it is my strong belief in IRI's long 
experience that counterterrorism and military operations alone 
will never be a sufficient response to genuine real extremist 
threats that they face. Egypt needs to enlist the help of its 
civil society, not crush it. It should avoid measures like its 
2013 anti-protest law that curtails citizens' ability to 
participate peacefully in public meetings or its 2015 
counterterrorism law that punishes journalists who stray from 
official government narratives. President Sisi has defended the 
crackdown on civil society calling it fourth generation 
warfare, the notion that media and civil society groups that 
aren't lockstep with the government are somehow waging war 
against the Egypt State.
    Madam Chair, history warns us of the dangers when 
conspiracy theory becomes official policy. Just ask those 43 
wrongly convicted NGO workers who are still unable to travel 
freely in some parts of the world, and the Egyptian staff who 
have been cut off from their families over these years. Now, 
the Egyptian Government appears to be doubling down on its 
approach. As was mentioned, it has reopened and apparently 
widened the NGO case with as many as 47 Egyptian and 
international organizations now being threatened with criminal 
prosecution.
    But despite this bleak picture, IRI and other international 
organizations still hope that Egypt will one day reclaim its 
strong civil society and citizen-responsive government 
traditions. At IRI we continue to work with peaceful democratic 
Egyptians through programs taking place offshore in third 
country locations. We still hope to assist civil society and 
political party reformers to improve governance and to combat 
the alienation and anger that extremism depends upon. We are 
proud that, despite the many obvious challenges, a recent 
independent evaluation of our Egypt programs found promising 
results and reason for continued engagement.
    Madam Chair, I respectfully offer the following 
recommendations for the subcommittee to consider: First, since 
Egyptian obstinacy has apparently created a backlog of U.S.-
Egypt assistance funds to the tune of $700 million or more, I 
would urge the U.S. to redirect much of that backlog to places 
where significant democratic strides are being made, places 
like Tunisia.
    Second, the funds that are going to Egypt I believe a 
significant portion of that should be used to engage democratic 
actors and build their skills for a future democratic 
breakthrough.
    And then finally, U.S. administration officials, Members of 
Congress, and staff at every level should continue to raise the 
foreign funding case at every opportunity. We should make it 
clear that reopening the case and expanding it is 
unconditionally unacceptable. And of course, continue to insist 
that the only solution to the 2013 verdict is full pardons by 
President Sisi.
    Madam Chair, a recent Economist article suggested that if 
Egypt does well, it can lift the region, whereas its collapse 
would represent a threat to the entire Middle East and Europe. 
I would add the United States to that list as well.
    Thank you, Madam Chair.
    [The prepared statement of Ambassador Green follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
                          ----------                              

    Ms. Ros-Lehtinen. Very good. Thank you, Ambassador Green.
    Mr. Awad.

  STATEMENT OF MR. MOKHTAR AWAD, RESEARCH FELLOW, PROGRAM ON 
   EXTREMISM, CENTER FOR CYBER AND HOMELAND SECURITY, GEORGE 
                     WASHINGTON UNIVERSITY

    Mr. Awad. Madam Chairperson, Ranking Member Deutch, members 
of the subcommittee, thank you for this opportunity to be here 
to talk about security in Egypt. In fact, I have recently 
returned from a long research trip to that country where we 
have met with colleagues, top security officials, and went to 
areas like the Western Desert and Suez Canal area to see the 
situation there on the ground for ourselves. I am going to 
provide a threat assessment of the situation in Egypt with some 
relevant recommendations.
    The most important thing to understand is that Egypt is 
facing what is the deadliest and most lethal, complex 
insurgency in its modern history. Since the Muslim Brotherhood 
was ousted from power in July 2013, at least 900 security 
service members lost their lives to an array of terrorist 
groups seeking to topple the government. The threat in Egypt 
comes from three different geographic theaters and three 
different types of groups.
    First, there is northeastern Sinai where Islamic State-
affiliated militants wage insurgency against the Egyptian 
Government and poses severe threat to Egypt and Israel.
    The second is in the Nile Valley, the heart of Egypt, where 
97 percent of the population lives. There, also Islamic State-
affiliated elements, some al-Qaeda elements, although small in 
number, and other violent Islamist groups suspected to be 
affiliated with some members inside the Muslim Brotherhood, 
also seek to topple the government there.
    Finally, the Western Desert with the vast border with 
Libya, the Islamic State is attempting to build a presence 
there.
    Let me focus a little bit on the situation in Sinai. You 
will find in my written testimony detailed information on the 
Nile Valley and the Western Desert. The situation in the Sinai 
continues to be quite challenging. Since the fall of 2014, the 
local jihadist group called Ansar Bayt al-Maqdis, or the 
Champions or Supporters of Jerusalem, saw its capabilities 
increase significantly as it pledged allegiance to the Islamic 
State. Since then, they were able to launch large-scale 
defensives on the ground, culminating in a July 1, 2015, attack 
that attempted to hold parts of the city called Sheikh Zuweid 
in North Sinai. Only after a 12-hour-plus battle and the 
intervention of Egyptian F-16s was the jihadist threat 
neutralized.
    Since then, Egyptians launched a massive counteroffensive 
that has had some successes. It should be noted that the 
jihadists in North Sinai do not control any population centers. 
Also, their areas of operation have largely been contained. 
Despite these successes, they have shifted their tactics and 
have used more IEDs and focused on terrorist attacks like the 
downing of the Russian airliner in October 2015. As a result, 
the first quarter of 2016 is the deadliest 3 months on record 
for Egyptian troops in North Sinai. The frequency of attacks 
has also increased, but again, they have not been back to the 
same quality of capabilities that they had prior to July.
    Quickly, on the Nile Valley and the Western Desert, the 
most important things to understand there is that the situation 
is comparatively better compared to the Sinai. With that being 
said, although the government has had great successes in the 
Nile Valley, cracking down on some of the violent Islamists 
connected to the Muslim Brotherhood and al-Qaeda, the Islamic 
state has recently been attempting to bring armed insurgency 
closer to Cairo. However, these attempts have been thus far 
checked.
    And finally, of course, in the Western Desert smugglers 
continue to operate, and as pressure increases against the 
Islamic State in Libya, they are more likely going to look more 
into the Western Desert to find ways to entrench themselves 
there.
    Finally, let me offer some recommendations. I think for 
these reasons a continued security relationship with Egypt is 
of course important for U.S. strategic interests in the region. 
However, the relationship should reflect the changing nature of 
the challenges Egypt faces in confronting asymmetric threats 
from non-state actors and advance U.S. interests. The Obama 
administration announced that starting in Fiscal Year 2018 the 
U.S. will channel FMF funds toward procurement in four 
categories. Counterterrorism, border, maritime, and Sinai 
security is a good basis for the future of the FMF program. 
This pathway for updating U.S.-Egypt cooperation is sound and 
will require close coordination and support between Congress 
and the administration in order to implement it effectively.
    The U.S.-Egypt relationship requires new anchors that go 
beyond security but also requires updating the security 
relationship. It should be built on mutual trust, respect, and 
frankness. The United States should encourage Cairo to 
implement a comprehensive counterinsurgency strategy in the 
Sinai that integrates technologies and training with economic 
development and tribal outreach in order to effectively defeat 
terrorist elements, all while minimizing collateral damage. 
Both governments should ensure that defense officials are able 
to discuss issues related to counterinsurgency frankly and be 
granted the access necessary to adequately provide training and 
assistance.
    More cooperation is also needed with Egypt's General 
Intelligence Directorate and to the Ministry of Interior, 
specifically the State Security. These institutions are key 
actors in Egypt's fight against terror and thus warrant this 
further engagement.
    Egypt should implement a comprehensive counterterrorism and 
countering violent extremism strategy that in part cracks down 
on human rights abuses and improves conditions in prisons to 
combat radicalization. All assistant should be on the basis of 
advancing U.S. interests in providing the necessary weapons and 
training that can help Egypt address its security challenges in 
ways that align with U.S. interests and values.
    Finally, U. S. security cooperation and assistance with 
Egypt should be conditioned on Egypt's performance in the 
security field itself instead of political and economic 
reforms. I look forward to getting into more details in the 
Q&A. Thank you.
    [The prepared statement of Mr. Awad follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Mr. Awad, thank you so much.
    Ms. Hawthorne.

 STATEMENT OF MS. AMY HAWTHORNE, DEPUTY DIRECTOR FOR RESEARCH, 
                PROJECT ON MIDDLE EAST DEMOCRACY

    Ms. Hawthorne. Good morning. Thank you, Madam Chair, 
Ranking Member Deutch, distinguished members of the committee. 
I am honored to be here today to testify alongside my esteemed 
colleagues.
    I would also like to commend the chair and Congressman 
Connolly for their leadership on a series of crucially 
important GAO reports that have shed light on U.S. aid to Egypt 
and for the subcommittee's leadership on holding regular 
hearings on Egypt over the past few years.
    With your permission, I will summarize the key points of my 
written testimony.
    Ms. Ros-Lehtinen. Please do. Thank you so much.
    Ms. Hawthorne. Egypt remains important to the United States 
for all the reasons that have been mentioned this morning, but 
nearly 3 years after now-President el-Sisi led the military 
overthrow of Mohamed Morsi's government, Egypt is headed in the 
wrong direction with regard to political developments, its 
economy, and its security situation, and in many ways it has 
become a more difficult partner for the United States. At 
present, relations with Egypt present more challenges than 
opportunities for the United States.
    With regard to the political situation, as detailed in fact 
sheets that I attached to my testimony, there is an intense 
campaign of repression, vast human rights violations and a 
political crackdown that is far worse than anything that took 
place under Mubarak or under former President Morsi. I will 
spare you the details, but suffice it to say that thousands of 
Egyptians have been locked up, and conditions in detention 
centers and prisons are thought to involve abuse and torture 
and the potential radicalization of inmates who are held in 
these conditions. Civil society and independent human rights 
groups are under an intense campaign of repression. Blasphemy 
cases and other prosecution of Egyptians for expressing their 
opinions and their views, including against Coptic Christians, 
are at record highs in Sisi's Egypt.
    As the leading human rights activist Gamal Eid wrote in a 
recent article in the New York Times, when independent, 
political activity and civil society groups are crushed, you 
run the risk in Egypt of moving toward a situation that was 
similar to that which existed in Qaddafi's Libya or Saddam 
Hussein's Iraq in which there are no mediating institutions, no 
spaces for citizens to gather peacefully and organize and 
mobilize against their government, and this creates a society 
that is far more brutal and far less prepared to deal with 
turbulence and conflict and risks falling into violence.
    On the economic front, although President Sisi has a spoken 
often of improving the economy and the Egyptian Government has 
taken some important steps, Egypt remains mired in economic 
problems. By many economic indicators, the economy is getting 
worse, and most concerning, I don't see a clear sign coming 
from the Egyptian leadership about a sound economic policy to 
turn the situation around.
    I would also note that one of the key features of Sisi's 
Egypt, which is an increased role for the military in the 
civilian economy, is completely antithetical to the development 
of the competitive, free-market economy that many Egyptians and 
the U.S. would like to see developed.
    With regard to security, my colleague Mokhtar Awad has 
described the situation far better than I ever could, but I 
would just like to underscore that there are genuine concerns 
that Sisi's strategy of combating the real terrorist threat 
that Egypt faces runs the risk of being so broad and 
indiscriminate and brutal that it may actually worsen the very 
problem it is trying to address by expanding the pool of 
Egyptians aggrieved against their government and susceptible to 
radicalization.
    With regard to U.S. relations, although President Sisi has 
often said that he seeks a strong relationship and a strategic 
relationship with the United States, the actions of many in the 
Egyptian Government suggest otherwise. This is a government 
that has refused to pardon innocent American citizens who have 
been wrongly convicted on trumped up charges relating to their 
work with NGOs; that puts American citizens on trial; that 
detains American citizens and deports them from the airport 
with no explanation; that constantly features negative images 
of and attacks on the United States and its media; and that, as 
the recent GAO report on security assistance pointed out, 
refuses to cooperate on many key aspects of U.S. security 
assistance.
    We need to work with Egypt. Although it is not easy, the 
United States must continue to partner with this government 
while showing strong signs of concern about the trajectory of 
the country.
    In the question-and-answer, I would be pleased to describe 
some details about the ways I think we should restructure our 
ESF and our FMF program in order to develop a course correction 
with regard to our policies in Egypt. Thank you.
    [The prepared statement of Ms. Hawthorne follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much. Excellent testimony 
from all three. I will start the question-and-answer period.
    Ambassador Green, I completely agree that if the Egyptian 
Government keeps stifling dissent and does not allow for more 
citizen participation, it will likely end up destabilizing the 
country even further.
    You mentioned that your legal team had looked into the 
Egyptian government's authority to issue pardons to the 43 NGO 
staff, and that you had concluded that it is completely within 
its power to do so. And when I have raised this issue with 
Egyptian officials, I have been told that the biggest obstacle 
is the judiciary's ongoing review and then reform of the penal 
code, which would then need to be passed by the Parliament. 
What is your understanding of the judiciary's role in this 
process, and how can we help Egypt to move these pardons 
forward and to start seeing civil society as an ally in its 
development and not as a problem?
    Ambassador Green. Thank you, Madam Chair, for that 
question. First off, as you alluded to, our best legal 
information is that they can move immediately to issue pardons. 
I would note, as some of you have pointed out, they do not seem 
to have a barrier in reopening the case in adding defendants. 
It is only pardoning the convicted that they seem to hesitate 
over. And again, we simply don't see legal barriers to it. 
There are more political obstacles that they keep raising.
    Madam Chair, I think the best answer to the question that 
you posed about how to move this forward is really, quite 
frankly, to continue doing what you have been doing and others 
on the committee have been doing and that is raise this every 
single time. Egypt is an important ally, and as an important 
ally, we need to speak frankly and make it very clear to them 
at every single possible opportunity that this matters to us. 
Their treatment of American citizens, as well as citizens of 
their own country, but particularly American citizens is 
something that matters to us and we will not let stand, so I 
think making that case over and over again.
    And then finally just on the logical point, as some of you 
have said, they are making it hard for us to help them. We wish 
to see, all of us, Egypt succeed. We need Egypt to succeed, and 
the lessons of our experience as a nation, as well as 
organizations like NDI and IRI, is that for security to be 
sustainable, it must involve citizens and civil society.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    Mr. Awad, you testified that, relative to the Sinai, the 
Egyptian security forces have so far been able to frustrate 
ISIS and other violent groups in the Nile Valley. What elements 
does Egypt need to include in its counterinsurgency strategy if 
it is to stop ISIS from expanding further? And what do you see 
as ISIS' strategy in Egypt as it attempts to link its 
operations with those in Libya?
    Mr. Awad. So let me discuss the situation in the Sinai. 
Counterinsurgency really relates to the Sinai. The issue is 
that the Egyptian Government and the military has articulated 
different parts of the strategy: Economic development, tribal 
outreach in an informal way, and beginning to update some of 
the doctrine and integrating intelligence surveillance and 
reconnaissance methods and how they are fighting the 
terrorists.
    The problem is, thus far, we don't necessarily see a 
unified central command that is implementing a 
counterinsurgency strategy. Different parts, again, are 
articulated. There is supposed to be a command that is for 
countering terrorism and economic development of the Sinai. 
However, it remains to be seen if in fact we will see the 
Egyptian Government saying that it is going to do 
counterinsurgency. The problem is some officials don't even 
like the term insurgency, but that is a whole other set of 
issues.
    When it comes to the Islamic State, as I have written in 
the West Point Sentinel in multiple articles, the Islamic State 
looks at Egypt as, most importantly, a base of operations that 
can be used to launch attacks against Israel. This is the case 
of the Sinai. Also, it can link the Sinai in the Libyan 
theater, so being able to have assets in the Western Desert 
that can secure the smuggling routes. Being able to have access 
to the Nile Valley that can continue that route from the 
Western Desert to Sinai is key and vital. Egypt also has a lot 
of Western interests, tourist targets, so Islamic State looks 
at it as a place where it can do external operations against 
Western targets.
    Finally, Egypt is an untapped reservoir, from their 
perspective, of recruits. We look at tiny Tunisia and the 
thousands of people it exported to that group, whereas in Egypt 
only a fraction of that number. So the Islamic State is looking 
to try and recruit as much as possible inside Egypt to feed its 
different branches but also to increase its operations in Egypt 
proper.
    Ms. Ros-Lehtinen. Thank you very much. Thank you.
    Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman.
    We have had a lot of discussion about the security issue 
and the human rights issue and how to bridge them, and I wanted 
to come at this a different way. President Sisi has taken a 
leading role in countering violent Islamic extremism, and his 
has been a needed and welcomed voice in the region. The 
question, though, is not about how we perceive it. The question 
is how do the Egyptian people perceive it, number one. And 
given the crackdown on Islamists, is President Sisi able to be 
a voice of influence in the broader region? Ms. Hawthorne?
    Ms. Hawthorne. Thank you. That is a crucial question. I 
believe that many Egyptians do support President Sisi's 
approach, and he does continue to enjoy support from large 
parts of the Egyptian population. But first of all, that 
support has notably declined in the past year as problems in 
Egypt have mounted.
    And secondly, I believe there are many Egyptians who are 
very worried and fearful of President Sisi's counterterrorism 
approach. In fact, many of these Egyptians are the very ones 
who the government and state institutions need to be able to 
reach to convince them not to turn to violence, not to turn to 
radicalization. And it is this constituency of Egyptian 
citizens who themselves or their friends or their families have 
been arrested, detained, tortured, subject to other kinds of 
mistreatment, convicted in trials that lack any semblance of 
due process. I think for those Egyptians they are looking for 
Egyptian leadership that has the moral authority to talk about 
values of tolerance and acceptance and human rights that are at 
the core of countering any message from ISIS. And they have, I 
think, a very serious concern.
    President Sisi speaks out against Islamic radicalism, which 
is crucial, but the other half of the equation, which is all of 
the other things that are needed to diminish the appeal of 
these groups, is really missing at this time.
    Mr. Deutch. Thank you. Mr. Awad, can you just follow up? I 
understand--and we have spoken about the concerns that so many 
of us share on the human rights front and on civil society, and 
clearly for those segments of Egyptian society who are trying 
to express themselves, we understand those problems. But more 
broadly throughout the region is the position that President 
Sisi has taken, speaking out against these radical Islamist 
views, how is that being received, again, throughout the 
broader region, understanding that there are human rights 
issues, there are civil society issues throughout the broader 
region as well, which we have to talk about. But just 
specifically on his willingness to speak out like this, Mr. 
Awad, what impact is that having?
    Mr. Awad. Well, we can't say that there is much impact. 
However, I can say that definitely people across the region 
appreciated the rhetoric coming from the President of a major 
country in the Arab world to speak in such frank terms against 
Islamic extremism and against many of these extremists.
    However, for Egypt to have impact, it will have to lead by 
example. This is not necessarily something that we have seen. 
Again, we have seen parts of a strategy articulated when it 
comes to countering violent extremism or CVE, but the 
government hasn't completely established a unified strategy 
that can set an example for less stable countries to follow or 
aspire to.
    Mr. Deutch. Ambassador Green, again, getting back to human 
rights and civil society, the frustration that we have 
expressed--and again, it is an issue I think Mr. Connolly 
talked about, the expectations that we have. But again, instead 
of just viewing this as what we expect and how Egypt receives 
the message that we are sending to them, how do we speak to 
Egyptian leaders about human rights in a way that resonates 
with them and that aligns with their interests? Is there a way 
to do that?
    Ambassador Green. I think the way that we do that is that 
we suggest to them over and over again--and we have plenty of 
lessons to point to--that in the long run, for security to be 
sustainable, it must have citizen buy-in, particularly from the 
next generation. Young people have to have a stake in a vibrant 
Egyptian culture and government, and that means that there has 
to be a space for citizens to engage and have a voice in their 
government. That, I think, is what we talk about over and over 
again.
    And if I might, just to add on to what we have just heard 
from your previous question, Egypt is clearly important to 
America's interests and to the interests of many in the region. 
However, I think everyone recognizes that Egypt's economy, as 
bad as it is, would be even more horrendous if it were not for 
it being buffeted and held up by outside assistance. And the 
same thing is true with the military.
    So while there is stability in one sense, I think many 
recognize that in so many ways it is hollow, that unless they 
make these investments in some kind of citizen engagement, they 
can never truly and sustainably be secure and have that bright 
future that everyone of us wants to see.
    Mr. Deutch. Thank you. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch.
    Mr. Wilson of South Carolina.
    Mr. Wilson of South Carolina. Thank you, Madam Chairwoman.
    Ambassador Green, thank you very much for your service, and 
I am really so pleased about your presidency of IRI, the 
International Republican Institute. I wish more American people 
knew about IRI, also the National Democratic Institute. It is a 
great example of working together, both parties, promoting 
democracy around the world.
    And I had the opportunity 26 years ago--it was life-
changing to me--to be an election observer as a State Senator 
in Bulgaria June 10, 1990. I will never forget it. It was 
extraordinary to see the country come to life after fascism, 
Nazism, communism. And then it gave me the opportunity to 
invite--and I had a Member of Parliament Stefan Stoyonov and 
Ambassador Elena Poptodorova come and observe our election. So 
it was eye-opening.
    And then I had the opportunity, due to IRI, to visit in 
Bratislava, Slovakia; to Novosibirsk, Siberia. What a 
difference you make. And I had the great opportunity to have 
Ambassador Peter Burian as an election observer from Slovakia 
in South Carolina of all things where he unjustly accused me of 
arranging for half of the voters to have Slovak heritage. It 
was just a coincidence as we were at the polling locations. But 
what a difference IRI makes. So thank you.
    In your written testimony, you stated that President Sisi's 
concerted counterterrorism campaign in the Sinai shows few 
signs of progress in eliminating the very real extremist threat 
that is sadly on the rise. Based on this observation, could you 
explain the impact of the really bizarre reports that the U.S. 
may be withdrawing from the Sinai, and what would that do to 
the prospect of destroying ISIL/Daesh on the Sinai Peninsula?
    Ambassador Green. Thank you, Congressman. Thank you for the 
kind words. And as you know, IRI and NDI are joined at the hip. 
We are sister organizations working closely together.
    I am not sure I am qualified to give you a thorough 
assessment on the security front, but I would say that we do 
believe the U.S. must stay engaged with Egypt. It is a crucial 
partner of ours in the region, so I would certainly not suggest 
withdrawal in any way, shape, or form.
    Mr. Wilson of South Carolina. Well, to me it is very clear. 
We either stop ISIL/Daesh overseas or we will see them again 
here, as Congressman Rohrabacher has so eloquently pointed out.
    Mr. Awad, how would you characterize the impact of U.S. 
military assistance to Egypt? Has it been used effectively?
    Mr. Awad. If I may just to comment on the issue of the MFO 
in North Sinai----
    Mr. Wilson of South Carolina. Yes, please.
    Mr. Awad [continuing]. Our troops are not there to fight 
ISIS, so the issue of removal is not taking them out of Egypt 
necessarily but a more secure location in the South Sinai so it 
won't have necessarily a negative impact on the fight against 
ISIS. The troops are there to observe the peace treaty between 
Egypt and Israel, and that is no longer as acute of a problem 
as it used to be. So it is for our troops' protection. We are 
not removing our people from Egypt or we are not limiting the 
pressure that is applied against the Islamic State there.
    For the most part I think there is room for improvement 
when it comes to how our military assistance is lining up with 
Egyptian priorities and how that is advancing our point of view 
toward counterinsurgency in a place like Sinai. When it comes 
to the use of Apaches, F-16s, they have been effective, as I 
have noted, as the situation escalated in the Sinai. It is not 
so much an issue of the major weapons systems that we provide 
them but how best to provide them ISR-related technologies, 
drones, and things along those lines, but at the same time 
ensuring that they will be used in an effective strategy.
    So we have made some gains. It is doing some work, but 
there is a lot that can be done with the type of weapons that 
we give them. But at the end of the day there needs to be an 
effective counterinsurgency strategy, an articulated strategy 
that we can actually latch onto and provide the necessary 
equipment for.
    Mr. Wilson of South Carolina. Thank you very much. And, 
Ambassador Green, how could you explain, sadly, the relatively 
low voter turnout in Egypt selections? What can the United 
States do to encourage greater participation in the political 
process?
    Ambassador Green. Well, obviously, the most important 
things that can be done are by the Egyptian Government itself. 
It is creating meaningful opportunities. Where outcomes are 
predetermined or preordained, people see less reason to 
participate, and so genuine choices, genuinely citizen-centered 
choices at the ballot box are the long-term answer.
    We recognize in a challenging security situation there may 
be intermediate steps and there may be a path to be followed, 
but clearly, there has to be some hope for Egypt's young people 
that they will get back to the traditions that they have had of 
civil society being vibrant and citizen-centered government 
being the norm.
    Mr. Wilson of South Carolina. And again, I have seen it 
firsthand with IRI and NDI. Again, it is fun when you visit 
these countries and you can't tell who is R and who is D, which 
is amazing. But working together and by encouraging youth 
groups, different civic groups to participate, it is very 
positive, and I wish you continued success.
    And I yield back to the chairperson.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Wilson.
    And now we will go to Mr. Trott, right? Yes.
    Mr. Trott. Thank you, Chairman, and----
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Trott [continuing]. I want to thank Ranking Member 
Deutch for scheduling this hearing.
    And obviously, a discussion of the relationship between 
Egypt and the United States is very important because there is 
a strategic importance to the relationship.
    I didn't get here in time to make an opening statement, but 
I wanted to mention to the panel that I am very honored today. 
I have a large Coptic community in my district, and so for the 
first time in the history of the House, Father Mina from the 
Orthodox church in Troy, Michigan, is here. He is going to open 
the House and lead the House in prayer later this morning----
    Ms. Ros-Lehtinen. Oh, terrific.
    Mr. Trott [continuing]. So it is a wonderful honor, and I 
will be happy to welcome him with the Speaker in about an hour.
    My question goes to the events that happened a few weeks 
ago in Minya when the elderly woman was stripped naked and 
paraded around the city, and I just want each of the panelists 
to speak to, you know, what is going to be done in response to 
that outrageous incident? Is President Sisi going to be 
supportive of a rule-of-law solution? Are we going to engage in 
ridiculous reconciliation sessions? What is going to happen 
there? What can we do to help get the right result with respect 
to that outrageous behavior and incident?
    And then generally with respect to religious minorities, 
how can Congress help move the needle to make sure the 
situation continues to improve particularly for the Copts in 
Egypt?
    Ms. Hawthorne. I guess I will start with that one. First, 
in response to one of the earlier questions--and this actually 
feeds into your very important question with regard to how the 
U.S. can engage with Egypt on human rights and civil society 
and talk about the ways in which upholding these norms and 
values is in Egypt's interest--I would note that in recent 
meetings with visiting U.S. congressional delegations and with 
other foreign visitors, President Sisi has reportedly stated 
that the West should not hold Egypt to unfair Western human 
rights standards and that we should create sort of a lower 
standard or exceptions for Egypt's human rights performance.
    But in fact it is very important to keep in mind that these 
standards are not Western standards. Many of them are enshrined 
in Egypt's new constitution of 2014. Egypt is also a signatory 
to several key international human rights instruments, and 
quasi-official human rights bodies in Egypt monitor human 
rights. So when President Sisi and other Egyptian officials 
make that assertion, I think we need to be ready to respond 
with the fact that these are really Egyptian norms and Egyptian 
demands, as well as universal ones.
    With regard to the very troubling event that you referenced 
in Minya, frankly, this is one of the most disturbing things 
that I have read about of all the incredibly disturbing things 
that have been happening in Egypt recently. And sadly, it is a 
part of a pattern of communal tensions that lead to violent 
attacks on Coptic Christians with no recourse and no justice.
    One of the disturbing elements of this incident was that it 
only came to light because of dogged local reporting and 
information on social media by Egyptian citizens. The Egyptian 
Government was originally prepared not to mention it.
    President Sisi has spoken about this incident and has vowed 
that the perpetrators will be brought to justice, but I must 
say that under Sisi, under former President Morsi, and under 
former President Mubarak there was a terrible and disturbing 
pattern of lack of follow-through for these attacks against 
Copts and other minorities in Egypt, lots of nice words but 
very little follow-through or accountability or the rule of 
law.
    The problem is is that the justice system, the judiciary in 
Egypt today, in many cases seems incapable of rendering 
justice, and there is an increasingly intolerant environment in 
Egyptian society against those who are different, which might 
include Copts and others who are part of the fabric of Egyptian 
society.
    I think that it is very important that all visiting 
Americans--U.S. officials, Members of Congress, and others--
raise these issues with President Sisi because the Egyptian 
authorities often would like to sweep these problems under the 
rug and suggest there is no sectarian tension and there is no 
communal strife in Egypt, and that is simply not the case. So 
the first step is for us to raise these issues and then to 
remind Egypt of its national and international obligations.
    Mr. Trott. Thank you. I think that is a great answer and a 
great suggestion and I appreciate it. And I have limited time, 
so I have just one other question I will follow up with you.
    So if the Muslim Brotherhood have an exclusive ideology and 
democracy is an inclusive process, is the Muslim Brotherhood 
compatible with democracy?
    Ms. Hawthorne. That is a crucial question and one that is 
difficult to answer in brief. I believe that at least through 
2013 when President Morsi's government was toppled, there were 
members of the Muslim Brotherhood who were ready to work within 
and accept the democratic process while in my personal view 
still hewing to disturbing, illiberal, and intolerant views. 
But at least it was a first step that there were some members 
of the group who were willing to participate in elections and 
participate in a democratically elected government. However, 
once President Morsi was in power, we saw a lack of regard for 
human rights, norms, and many disturbing signs and tendencies 
toward repression.
    However, if we look at actual acts and practices, we see 
that what has taken place under President Sisi, who professes 
to support democracy, is actually far more abusive and far more 
brutal and far more disparaging and violating of democratic 
norms than what took place under previous governments.
    So I believe that there are many undemocratic actors in 
Egypt, not just many Islamists but also other Egyptians who are 
very enamored of a harsh, repressive security state. So the 
outcome on the ground is the same in my view, and it is very 
disturbing.
    Mr. Trott. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, excellent questions. 
And good luck with the prayer today.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    Ms. Hawthorne, your testimony is that the current crackdown 
is worse than that under Morsi and worse than that under the 
Mubarak government, correct?
    Ms. Hawthorne. [Nonverbal response.]
    Mr. Connolly. That is a pretty hard statement. It seems to 
me that if you don't create political space, you are inviting 
repression and authoritarian regimes because there is no 
alternative. I don't know why we were surprised when Mubarak 
fell that the only viable electoral alternative was the Muslim 
Brotherhood. They were the only ones who had organized, however 
surreptitiously, and no other political dissent had been 
allowed, with our complicity. And we are doing it again under 
this military-led government.
    And my friend from California, Mr. Rohrabacher, warned us 
that if we didn't support this government, the alternative was 
radical Islamic terrorism. I fear that without questioning this 
government, without challenging this government, without 
holding it to certain standards, that is precisely the 
alternative. We will create that alternative not by design, but 
because we have created no political space in Egypt, the 
largest Arab population in the world.
    The idea that there is only this military-led government or 
chaos in the void seems to me an unacceptable proposition for 
the American people and the American Government, and we have to 
use whatever lever is available to us--and we have talked about 
that a little bit in terms of foreign assistance--to try to 
effectuate a better outcome and a better-performing government, 
one that is more inclusive and certainly does not resort--I 
mean, when you say, Ms. Hawthorne, that the current crackdown 
is worse than Morsi, whatever one wants to say about the Muslim 
Brotherhood government--and God knows I have no love for the 
Muslim Brotherhood government, but they did get elected freely 
and fairly according to the United States Government, is that 
not correct?
    Ms. Hawthorne. [Nonverbal response.]
    Mr. Connolly. Did they mow thousands of Egyptian citizens 
in the streets of Cairo and Alexandria, Ms. Hawthorne?
    Ms. Hawthorne. No, they did not.
    Mr. Connolly. No, they did not. That is kind of a big 
measuring stick, it seems to me. However repressive or anti-
democratic tendencies they may have been showing at the time of 
the overthrow, they did not do what this government has done 
against its own citizens.
    And I am not trying to create a favorable comparison, but I 
think we, America, we need to realistically look at what has 
been wrought in Egypt. And I believe that repressive government 
in Egypt plays into the hands of the very elements we want to 
oppose and we do not want to strengthen.
    Ambassador Green, what about that? IRI is on the ground 
over there. You have had people who have been victimized by 
this government and the previous government. What is your 
sense?
    Ambassador Green. Well, thank you, Congressman. If nothing 
else, your statement about the importance of political space we 
absolutely agree with, that there must be political space 
created for people to engage in a safe space with their 
government. And what we worry about is ongoing alienation of 
youth, the next generation. And if they grow up in a society 
with no safe space, no opportunities to engage with their 
government and with their society, what will be the long-term 
ramifications? Will you have an entire generation that knows 
nothing else but what they are seeing right now? And obviously 
none of us would support that. That would be a terrible thing.
    Mr. Connolly. And maybe that, given my limited time, 
Ambassador Green, we could talk just a little bit. I am going 
to invite you to describe the process. But when I met with the 
young people from the NGOs who are unfortunately being 
prosecuted by their government, these were young idealists 
committed to making their country a better place. I mean, you 
couldn't have asked for a better sense of citizenship. And in 
fact one worried about their idealism being perhaps crushed by 
the government. Most of them come from middle- and upper-
middle-class families. They are educated. Describe the 
humiliation of what it means to be put on trial in a courtroom 
in Cairo. What happens? Are you put in a jury box?
    Ambassador Green. They do not receive the same legal 
protections or opportunities obviously that we see in the 
United States or in nearly all of the civilized world. And it 
goes back to my strong belief that alienation of youth is one 
of the most dangerous conditions. Left unaddressed, it will 
guarantee more authoritarian government. It will guarantee an 
unsustainable security situation.
    Mr. Connolly. And the disillusionment of a cadre of young 
people who actually believed in democracy.
    Ambassador Green. Very much so.
    Mr. Connolly. Thank you. Thank you, Mr. Chairman.
    Mr. Wilson of South Carolina [presiding]. And thank you, 
Mr. Connolly.
    We will now proceed to Congressman Ron DeSantis of Florida.
    Mr. DeSantis. Thank you, Mr. Chairman. And I appreciate 
Chairman Ros-Lehtinen holding this hearing. I think that this 
is a very important subject.
    And I agree with a lot of the concerns about what is going 
on in Egyptian society, but I also don't want to view the 
Muslim Brotherhood with any type of rose-colored glasses. I 
think that we should designate them as a foreign terrorist 
organization. We have passed it out of one House committee 
already, and it is awaiting Floor action. I think that they are 
not part of the solution in the Middle East but part of the 
problem.
    So let me ask you, putting aside the problems that are 
going on in Egyptian society, Ambassador Green, is President 
el-Sisi a more reliable ally to the United States in combating 
Islamist terror than a Muslim Brotherhood-led government would 
be?
    Ambassador Green. Thank you, Congressman. I am not sure I 
am qualified to comment necessarily on the security situation, 
but what I can comment on is very clearly former President 
Morsi and the Muslim Brotherhood were leading Egypt on a very, 
very dangerous path toward combative, violent Islamic 
extremism. You know, there is simply no doubt of that.
    My fear and what my testimony is today is that in the 3 
years since then, I worry that the clamping down on civil 
society and human rights is making the situation--we are 
certainly not improving the situation.
    Mr. DeSantis. I think we saw Mubarak is removed, they do an 
election, and really the default political movement is 
political Islam. You saw that with the Brotherhood winning; the 
Salafists did well in that election. And I am concerned as well 
with what you are talking about with civil society, but are 
there competing ideologies at play? Are there people who are 
trying to offer a more, I think, appetizing view of the role of 
government and individual liberty in Egypt right now?
    Ambassador Green. I think one of the dangers is when you 
have a total clampdown on civil society and the opportunities 
for citizens to engage their government, there is no pluralism, 
and that is a very dangerous thing. So, you know, it becomes a 
self-fulfilling prophecy. And again, we believe that there 
needs to be political space for people to express themselves. 
We recognize the security challenges that the government faces, 
but certainly from the perspective of the U.S., there is every 
reason that we should be clear-eyed in our analysis, and we 
should be honest and straightforward with those with whom we 
engage.
    Mr. DeSantis. Mr. Awad, what would you say? President el-
Sisi, is he a more reliable ally in combating Islamist terror 
than a Brotherhood-led government would be?
    Mr. Awad. On that narrow question of reliability, to rely 
on a member of the Egyptian military over a member of the 
Muslim Brotherhood to combat terrorists, the short answer is 
yes. There was a question asked earlier about whether or not 
the Muslim Brotherhood is compatible with democracy. That 
question can be debated, but I believe they are wholly 
incompatible with liberal democracy. I am not really sure that 
this is a question that is necessarily up for debate, the 
Egyptian Muslim Brotherhood, that is.
    On the question of whether or not they are a foreign 
terrorist organization, I don't necessarily see evidence that 
the entire organization is a terrorist organization. That does 
not make them pacifists. They have problematic views. They have 
proven themselves to be----
    Mr. DeSantis. They support groups like Hamas, though.
    Mr. Awad. They do support groups like Hamas. However, we 
are talking about material or financial support. The extent of 
that has to be investigated to be able to make a designation 
that every member of----
    Mr. DeSantis. Well, but they also provide----
    Mr. Awad [continuing]. The Muslim Brotherhood is a 
terrorist.
    Mr. DeSantis [continuing]. The intellectual contours for a 
really rigid political Islamism. And one of the things I 
appreciated with President el-Sisi--and again, I think I agree 
with you guys on the problems of the civil society is that he 
gave a speech in front of a lot of clerics in 2015 and just 
made the point that he is a devout Muslim, but you can't have 
the faith used to be antagonistic to every single person in the 
world who disagrees with that. I would imagine that that view 
would be rejected by the hierarchy of the Brotherhood, correct?
    Mr. Awad. That is true. And let me clarify. There is 
increasing evidence that one faction inside the Muslim 
Brotherhood has engaged in violence since January 2014 at 
least. Some of their members have engaged and do engage in 
violence. The question here is not, again, whether the Muslim 
Brotherhood is a pacifist organization or a problematic one. It 
is. It is incompatible with liberal democracy, and its views 
are regressive.
    But for the United States in designating a foreign 
terrorist organization, if we want to take a step like that, 
perhaps we should take a look at the specific individuals or 
the specific faction that is actively engaging in these things 
because there are many members of the Muslim Brotherhood who 
may hold regressive views like members of white supremacist 
groups here in the United States that we wouldn't necessarily 
designate as terrorists. But again, the lack of designating as 
terrorists does not mean that the organization is a good 
organization or compatible with liberal democracy.
    Mr. DeSantis. All right. I thank the gentleman for his 
comments. I would just say I think that what is kind of at the 
foundation of society, are there pockets where you could 
actually have more liberal views about the proper role of 
government. And my fear is that the default is basically the 
Brotherhood and political Islamists, that that is where the 
majority or at least a plurality of the folks are. But I agree 
it is tough to figure that out if there are not open channels. 
But I appreciate the testimony, and I yield back.
    Mr. Wilson of South Carolina. Thank you, Congressman 
DeSantis. And now we will conclude with our guest, Congressman 
Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And I am very pleased to hear from our colleagues that we 
have a Coptic religious leader leading us in prayer this 
morning. That is a wonderful statement for us to make.
    Let me suggest this. I worked in the White House with 
President Reagan at a time when the National Endowment for 
Democracy became real. I worked with a speechwriting team that 
developed the concept in his speech before Parliament. And let 
me note that during that time period, I think one of the 
reasons we won the cold war is Reagan became the champion of 
democracy rather than repression as a way to meet communism. 
That was part of the basic theory. But let me note this, that 
what we have today are alternatives between if the bad guys 
win, what we have is what, Islamic dictatorships that will 
murder people in great number.
    And, you know, quite frankly, I think that when you have 
some level of repression against groups of people in your 
society that went to institute a dictatorship, what we did is 
we used those people who wanted freedom and democracy against a 
communist regime, we emphasized that, and that is how we won 
the cold war.
    But the fact is those people and the institutes we are 
talking about were pushing for democracy in communist 
countries, and what would replace--in other words, the 
repressive people in those countries where the ones who didn't 
believe in democracy and we were supporting--by having the same 
strategy in Egypt and other countries, we are ending up, what, 
supporting and giving life to elements within that society that 
don't want more democracy.
    So I would suggest that pushing against restrictions, 
especially during a time when hundreds of Egyptian people are 
being murdered or soldiers are being killed in a battle against 
radical Islam, at a time pushing them at that point to a 
standard, a Democratic standard that we believe should be the 
standard in ordinary times, perhaps makes it more likely that 
there will be a repressive government rather than less likely, 
meaning in the end I believe General Sisi, now President Sisi, 
wants a Democratic Egypt. And for us to undermine him now we 
might end up creating a horror story in terms of radical 
Islamic terrorism throughout the region, but also the people of 
Egypt will be less free if the Muslim Brotherhood element 
succeeds.
    Now, with that suggestion, let me ask about the blasphemy 
law. You mentioned the blasphemy rules. How many people have 
been prosecuted for blasphemy laws in Egypt?
    Ms. Hawthorne. I believe that in recent years it has been 
in the dozens.
    Mr. Rohrabacher. In recent years----
    Ms. Hawthorne. Yes, it has been----
    Mr. Rohrabacher [continuing]. Been dozens?
    Ms. Hawthorne [continuing]. In the dozens.
    Mr. Rohrabacher. So that means last year maybe one?
    Ms. Hawthorne. No, I think it was a significantly more than 
that.
    Mr. Rohrabacher. Okay.
    Ms. Hawthorne. I will have to check on those but----
    Mr. Rohrabacher. Five then----
    Ms. Hawthorne [continuing]. I think it was----
    Mr. Rohrabacher. We are talking five or ten?
    Ms. Hawthorne [continuing]. More than five, in the dozens.
    Mr. Rohrabacher. Okay. So in the dozens over a number of 
years. Tell me, in the other parts of the Middle East how does 
that stack up with the rest of the countries in the Middle 
East?
    Ms. Hawthorne. Well, first of all, Egypt has a much larger 
Coptic Christian population----
    Mr. Rohrabacher. Yes.
    Ms. Hawthorne [continuing]. Than many other countries.
    Mr. Rohrabacher. Right.
    Ms. Hawthorne. So the dynamics are----
    Mr. Rohrabacher. That is because they have relative freedom 
of religion compared to all the other countries in the Middle 
East.
    Ms. Hawthorne. I think it is very troubling. I mean, a 
recent incident that sort of highlighted some of the dilemmas 
that are occurring in Sisi's Egypt today is that a group of 
Coptic Christian teenagers who filmed----
    Mr. Rohrabacher. Hold on. Hold on. I am asking a question 
here. I don't want you to go on about your philosophy. We 
understand, and I agree with what you are saying, but I am 
asking you a specific question. Doesn't Egypt rank really high 
up on the scale when compared to other Middle Eastern countries 
in terms of freedom of religion, blasphemy, et cetera?
    Ms. Hawthorne. In some respects there are positive signs. 
In other respects there are----
    Mr. Rohrabacher. Is the answer yes or no?
    Ms. Hawthorne. I think it is a mixed picture.
    Mr. Rohrabacher. Okay.
    Ms. Hawthorne. President Sisi has said some important 
things----
    Mr. Rohrabacher. All right.
    Ms. Hawthorne [continuing]. But actions on the ground 
continue to be----
    Mr. Rohrabacher. All right. All right.
    Ms. Hawthorne [continuing]. Increasingly intolerant.
    Mr. Rohrabacher. I have got a limited amount of time. That 
is why I can't let you go on. The bottom line is I have been to 
the Middle East, we have all been to the Middle East. To 
compare Egypt under attack by radical Islamic forces that hate 
us, that would murder us, as well as murder all the people in 
Egypt that disagree with them, to compare them to us and the 
rest of the Western world, Europe, is wrong. It is bad. It will 
result in more tyranny and not less. What is fair is to compare 
Egypt to the other Muslim countries in that region.
    And I know it sounds like you are very hesitant to say it. 
I am not hesitant to say it. Egypt ranks way up there on the 
top of that scale. It is positive as compared to Qatar, as 
Saudi Arabia, Bahrain. All of these countries that we are 
talking about that you could compare it to legitimately, Egypt 
gets an A plus compared to them.
    I think it is totally unfair, especially when this country 
is under attack, their people are being murdered, you have got 
the soldiers being killed, 900 soldiers--what would happen if 
900 American soldiers--by the way, in proportion, that is about 
90,000 American soldiers being killed and then to hold Egypt to 
that standard is wrong.
    And, Mr. Chairman, just indulge me in one more moment. I do 
not believe that radical Islamic terrorists are really 
alienated Democrats. I don't believe that for a minute. This 
idea that because there have been clampdowns on certain people 
that maybe shouldn't be clamped down--look, any time you let 
the government bureaucracy go, they make mistakes and they 
target people. They do that--we have had our own people 
targeted here by our own Government in terms of the IRS, et 
cetera, for disagreement.
    But this, the radical Islamists that are a threat to us now 
are not people who believed in democracy, but they were upset 
that they knew someone who was repressed by a repressive 
government. These are people who have a philosophy, an ideology 
like communism did during the cold war. The fact is that 
communists believed in what they believed in. They believed in 
a dictatorship of the proletariat. That idea was defeated, but 
we recognize what that was.
    Today, radical Islamic terrorism is affecting the entire 
world and threatens especially the democratic world. General 
Sisi who is now President Sisi, the fact is if his government 
does not succeed because we have been too idealistic in 
comparing him to other standards, the Western standards of 
people who are not under attack and we lose this government to 
a radical Islamic government, the whole world will suffer and 
we will be in jeopardy.
    With that said, thank you very much.
    Mr. Connolly. Mr. Chairman?
    Mr. Wilson of South Carolina. Yes, Congressman Connolly.
    Mr. Connolly. If I might be allowed just a brief response.
    Mr. Rohrabacher. That is a unanimous consent, but as long 
as you promise that someday I get that opportunity when you 
have refuted me.
    Mr. Connolly. Absolutely.
    Mr. Rohrabacher. Okay. Good.
    Mr. Connolly. I simply wanted to say that I don't know that 
we disagree. To be a critic of the el-Sisi government is not to 
view terrorists as lapsed Democrats. Some of us want to see, 
like you do, Mr. Rohrabacher, Egypt as a bulwark against 
terrorism and extremism. The question is how best to do that. 
And some of us respectfully, including the witnesses here 
today, believe that the path el-Sisi has gone down actually 
will not yield that result, will do the opposite, not by design 
but by practice.
    Now, maybe we are wrong and I hope we are, but it is worthy 
of examination because my friend and I share the same goal. It 
is a question of how best to get there. I don't believe the 
best way to get there is by killing your own citizens, by 
clamping down on civil liberties, by imprisoning and trying 
young idealist NGO staffers who are trying to make for a better 
Egypt. I believe that those actions are almost designed to play 
into the hands of the very people you and I want to prevent 
from coming to power.
    And that is the debate. It is not an either/or choice of do 
you like terrorists or do you want a military strongman who 
cracks down on all dissent. There has to be another alternative 
making this better, creating political space so that we aren't 
faced with a black-and-white, either/or alternative. And that 
is just my point of view. Thank you, friend.
    Mr. Wilson of South Carolina. And I would like to thank, as 
we conclude, Congressman Rohrabacher and Congressman Connolly 
for their input, and we appreciate so much the witnesses here 
today.
    And again, I just have to restate IRI, NDI, the National 
Endowment for Democracy, what a difference it makes around the 
world providing opportunity. And I just wish the success of 
each of you.
    We are now adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

                                     
                                     

                            A P P E N D I X

                              ---------- 
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
